<html>
<title> - TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 4</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









      TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 4

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2017

                               __________

      Printed for the use of the Committee on House Administration








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













                       Available on the Internet:
                         http://www.govinfo.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-544                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
           
























                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia














 
        TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 4

                      WEDNESDAY, OCTOBER 11, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:31 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Comstock, Smith, and 
Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Cole Felder, Deputy 
General Counsel; Dan Jarrell, Legislative Clerk; Bob Tapella, 
Professional Staff; Erin McCracken, Communications Director; 
Jamie Fleet, Minority Staff Director; Khalil Abboud, Minority 
Deputy Staff Director; and Eddie Flaherty, Minority Chief 
Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's hearing, ``Transforming 
the Government Publishing Office for the 21st Century and 
Beyond,'' part 4 of our hearing series examining Title 44, the 
U.S. Government Publishing Office, and the Federal Depository 
Library Program. The hearing record will remain open for 5 
legislative days so Members may submit any additional materials 
they wish to include.
    A quorum is present, so we may proceed.
    Before I get into the substance of today's hearing, I would 
like to begin by thanking all of the stakeholders of GPO and 
the FDLP who have been engaged in this process over the past 
several months. I know that this has been a long process as the 
Committee, through regular order, has worked to review Title 44 
as it relates to the U.S. Government Publishing Office and the 
Federal Depository Library Program.
    I would like to give special thanks to GPO Director Davita 
Vance-Cooks, who has appeared twice before this Committee and 
has answered nearly a hundred detailed questions for the 
record, and I thank her for her cooperation and her openness in 
this effort.
    I also want to thank a number of the associations, such as 
the American Library Association, the Association of Law 
Libraries, the Medical Library Association, the Association of 
Research Libraries, the Association of Southeastern Research 
Libraries, and the Digital Library Federation, who have all 
provided both formal and informal input into the Committee's 
research.
    To the countless individual librarians from all types of 
libraries across the country, including public, law, and 
academic, who have taken the time to share insights, provide 
testimony, attend meetings, and open their doors for tours, I 
would like to say thank you for your dedication and service to 
our communities.
    Today's hearing will cover a myriad of topics in which this 
Committee would like further information or clarification. As 
we have learned through this review process, much of Title 44 
dates to the Printing Act of 1895. This act codified the public 
printing laws of the Federal Government, specifying the details 
of public documents, centralized all Federal printing at GPO, 
and established the Superintendent of Documents.
    Additionally, GPO and its stakeholders are asking for new 
authorities. We will be looking at five unrelated areas of 
Title 44 reform: first, the role GPO plays in the legislative 
process; second, congressional oversight of GPO as an agency in 
the legislative branch; third, constitutional principles of 
separation of powers as it relates to Congress' control of 
Federal printing and executive branch agencies; fourth, 
allowing GPO grant-making authority; and, fifth, permanent 
retention and preservation of both tangible and digital 
materials in the FDLP.
    I want to thank all the witnesses for being here, and we 
look forward to hearing from them.
    I would like to now recognize my colleague, Democratic 
member on the Committee, Jamie Raskin, for the purpose of 
providing an opening statement. Before he proceeds, I would 
also like to thank him for his joint efforts in this endeavor.
    Mr. Raskin.
    Mr. Raskin. Mr. Chairman, thank you so much for calling 
this hearing. And I want to thank the witnesses, also, for 
appearing today to offer testimony. It is an honor, as the 
newest member of the Committee, to get to make an opening 
statement on this important occasion.
    The input of the witnesses today is critical as we examine 
best how to support GPO in the process of modernizing its 
operations and adapting for the 21st century. Maintaining the 
official records of a constitutional democracy like ours is a 
sacred public duty. In authoritarian societies, it is essential 
to extinguish public memory and alter public records. But in 
democracy, it is essential to protect public memory and to 
maintain our records.
    The preservation of public records is a core service the 
government provides and is providing today. Whether online 
through the Federal Digital System or in person at one of the 
1,200 Federal Depository Library locations across the country, 
GPO keeps our citizens informed and actively engaged in 
government.
    Mr. Chairman, as a newly installed member of the Joint 
Committee on Printing, I had the great pleasure yesterday of 
touring GPO, where I saw firsthand how seriously the staff and 
the employees are taking this responsibility. I met with staff 
members at GPO who work late into the night every day waiting 
for Congress to wrap up our daily sessions in order to receive 
the Congressional Record for preparation for printing the next 
morning. I met with copy editors in GPO's print shop who pore 
through the Congressional Record looking for spelling and 
grammatical errors. I think I offered a couple of them jobs in 
my office.
    I toured the ID card manufacturing area where GPO staff is 
taking painstaking care to design and manufacture counterfeit-
proof ID cards for highly secure events, including the most 
recent Presidential inauguration. I visited the printing floor, 
where reams of paper, including congressional publications and 
the Federal Register, are printed and sorted with amazing 
speed.
    And I got to see firsthand some of America's last few 
remaining artisans schooled in the arts of bookbinding and 
marbling, which is a dazzling process which only a handful of 
people still know today. But marbling is the process that 
allows for the pages to have these kinds of colorful designs on 
them.
    I learned during my tour that behind the creation of the 
documents that record the story of American Government are 
early rising and passionate public servants, many of them my 
constituents in Maryland, Mr. Chairman. There are multiple 
shifts who are working over there at GPO. But it is a 24-hour-
a-day operation, sometimes 7 days a week.
    And the people there, most importantly, take extraordinary 
pride and honor in their work. One of them is my constituent 
John Crawford, a native Washingtonian and proud Marylander who 
has been with GPO for 51 years and says he has no interest in 
retiring because he loves the work that he is doing. He started 
as a journeyman bookbinder on the night shift in 1966 and is 
today the Managing Director of Plant Operations.
    So public servants like John deserve, obviously, not just 
good wages and job security, but our respect and admiration for 
the job that they are doing for us. And I know that our efforts 
to reform Title 44 will honor their service and commitment to 
America.
    I am eager to learn more about GPO's operations from this 
panel's perspective today as customers and as participants in 
the Federal Depository Library Program. In thinking about 
changes, we must listen carefully to the libraries. Not all of 
them have large endowments or active boards. Many of them rely 
on shrinking local budgets. And we need to give real 
consideration to a grant program that could empower them with 
the tools that make these documents available.
    So thanks, again, to the witnesses for their time and their 
candor. And thank you, again, Mr. Chairman, for convening us in 
this hearing. I yield back.
    The Chairman. The gentleman yields back.
    I would now like to introduce our first panel's witness. 
The Honorable Karen Haas serves as the Clerk of the U.S. House 
of Representatives. Ms. Haas was sworn in as Clerk of the House 
of Representatives for the 115th Congress on January 3, 2017. 
She is the 34th individual to serve as Clerk and previously 
served through the 109th, 110th, 112th, 113th, and 114th 
Congresses.
    As Clerk of the House, Ms. Haas plays a central role in the 
daily operations and legislative activities of the House and is 
the point of contact for many functions of the Government 
Publishing Office.
    Madam Clerk, the Committee has received your written 
testimony. You will have 5 minutes to present a summary of this 
submission. You know how the timing device works. So there will 
be a green light for the first 4 minutes, and then a yellow 
light for the last minute, and then red when the time has 
expired.
    The Chair now recognizes Ms. Haas for purposes of an 
opening statement.
    Welcome.

 STATEMENT OF THE HONORABLE KAREN L. HAAS, CLERK OF THE HOUSE, 
                 U.S. HOUSE OF REPRESENTATIVES

    Ms. Haas. Thank you.
    Chairman Harper, Members of the Committee, thank you for 
the opportunity to appear before the Committee today to discuss 
our partnership with the Government Publishing Office and the 
future legislative support needs of the House.
    The responsibility of the Office of the Clerk is to support 
the legislative requirements of the U.S. House of 
Representatives. The professional men and women of our 
organization accomplish this each day by working closely with 
our business partners.
    One of the most important partners is the Government 
Publishing Office. On a daily basis, we work with GPO to 
compile and print the complete record of the daily business of 
the House, process bills and reports, and make legislative data 
available electronically to Members, staff, and the public in a 
timely and accurate manner.
    In addition, GPO also supplies the House with letterhead 
and envelopes, publishes congressionally mandated books, prints 
special event programs and invitations, and binds official 
publications.
    However, GPO provides far more than print services. It 
supplies and maintains the printers we use to enroll measures 
and produce the Journal used at the start of each legislative 
day, as well as the parchment paper and presentation cases for 
presenting enrollments to the President. We also require GPO's 
proofreading expertise for large enrollments and many official 
documents.
    GPO employees are often detailed to House committees and 
other institutional offices to lend expert support for 
processing legislative documents and compiling legislative 
history. They also provide the databases to make our data 
electronically available to Members, staff, and the public.
    This list is not exhaustive, but as you can see, the 
products and services GPO provides are extensive and critical 
to our daily operations.
    As the primary liaison to GPO for the House, my team 
interacts with the organization daily, often beginning before 
dawn to coordinate the arrival of the Congressional Record and 
measures for floor consideration, continuing throughout the day 
and into the night with the processing of the day's bills and 
reports, and finalizing the Record for the day.
    Today, GPO plays an important role in the efforts to make 
the legislative process more transparent. In June of 2016, GPO 
was tasked with managing the ``more documents in USLM'' project 
to publish enrolled bills, Public Laws, and Statutes at Large 
in a machine-readable format. When this project is complete in 
late spring of 2018, it will represent a big step forward in 
how we access and use legislative data while also opening the 
door to convert additional documents.
    As the Committee looks to modernize the legislative process 
and GPO's work, we believe there are several key points to 
consider.
    One, previous mandates on the number of printed copies are 
not necessary, but some number of copies is required for 
legislative operations.
    Flexibility is important. The round-the-clock services 
provided by GPO are critical to the legislative process of the 
House of Representatives and must remain.
    GPO is an indispensable part of the evolving effort to 
modernize how we prepare, distribute, authenticate, and archive 
legislative data. The ongoing standardization efforts should 
continue.
    Support beyond print and technological expertise is needed. 
The ability to enlist additional proofreaders or detailees to 
help committees or offices with their documentation process is 
essential.
    Mr. Chairman, thank you for the opportunity to come before 
the Committee today, and I am happy to answer any questions 
that you may have.
    [The statement of Ms. Haas follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    

    
    The Chairman. Thank you, Madam Clerk, for your testimony.
    I will now recognize myself for 5 minutes for questions. 
And, without objection, all members will have 5 legislative 
days to submit to the chair additional written questions for 
the witness, which we will then forward and ask the witness to 
respond as soon as possible so that your answers could be 
included as a part of the record.
    And I thank you for being here and for all of your hard 
work. And I know in your testimony you state that although the 
required quantity of printed copies of documents has decreased, 
the Office of the Clerk must have the flexibility to coordinate 
with those documents' customers to determine what is needed.
    Would it be helpful if Title 44 gave you and the Secretary 
of the Senate the ability to determine quantities of documents 
produced by GPO rather than just making it a specification in 
the law?
    Ms. Haas. I do think it would be helpful to allow us to 
manage our customers' needs. So providing that flexibility, I 
think, would be important. But I would leave it up to the 
Committee as to the best way to accomplish that.
    The Chairman. Sure. But if you had the ability to determine 
that on a case-by-case basis, you believe your office could 
accommodate that and that would give you that flexibility?
    Ms. Haas. I do.
    The Chairman. Okay. And if we were coming in with a 
specification as to a number, that sometimes could be rather 
arbitrary.
    Ms. Haas. Absolutely. And I think we need to, as you are 
thinking about this going forward, think about the future and 
the technology changes we have already seen.
    The Chairman. Sure. And it is always a challenge to 
anticipate that technology changing.
    Ms. Haas. That is right.
    The Chairman. Also, I know that you certainly strive to 
provide the transparency and public access to the House's 
activities. Are there any additional ways in which the House 
and GPO could work together to increase access?
    Ms. Haas. I would suggest that we continue the efforts with 
the Bulk Data Task Force. I mentioned in the testimony that we 
already have a project in the works that GPO is managing. There 
are several other documents that need to also be translated and 
moved into the USLM format, and I would suggest that we 
continue to have GPO partner with us in that effort.
    The Chairman. Great.
    You know, the Committee has certainly heard from other 
customers about GPO's billing practices. As the House's primary 
point of contact, how would you describe GPO's billing? And is 
it timely, accurate, understandable? Help us clarify that.
    Ms. Haas. Sure. Several years ago we identified that as an 
issue, quite honestly, for us in managing the items that were 
going down to GPO, and we worked closely with GPO to refine the 
billing practices at the time. We regularly receive the source 
documents from them so we can compare what is produced through 
the Clerk's Office and with GPO.
    We have also taken it upon ourselves to work on our 
requisition system, and we have updated and modernized that 
requisition system from the House. What I would suggest is that 
we would work with GPO going forward on their side of that 
practice to continue to modernize that practice. But over the 
last several years we have seen an improvement in how GPO has 
provided us the data on a regular basis.
    The Chairman. Okay. Thank you.
    The House makes audio-visual recordings of Committee 
meetings and floor proceedings. Are there ways that the House 
could improve long-term access to these recordings?
    Ms. Haas. I think that is an excellent question. Currently, 
I am aware of a couple of ways that the videos are made 
available. They are made available on Congress.Gov through the 
Library, and I believe that is a system that the Committee put 
in place. We also have the archived copies of the committee 
video that is part of their committee archive for the future, 
and those are placed at the National Archives. And then, in 
addition, I know Members make their videos available on their 
YouTube channels.
    So, as far as I know at this point, the Library of Congress 
is working well. But I would really defer to the Committee on 
how they would like to see that going forward.
    The Chairman. Well, thank you for your input and the great 
work that your team does.
    And the chair will now recognize Mr. Raskin for 5 minutes 
for any questions he may have.
    Mr. Raskin. Chairman Harper, thank you very much.
    I want to follow up on the chairman's first question about 
the Congressional Record and how many copies need to be made 
for that and should there be more flexibility to meet what the 
actual needs are.
    Can you give us a sense of where the printed copies go now? 
You know, I understand that there were Members of Congress and 
Presidents, I think Lyndon Johnson, maybe Senator Byrd, used to 
read the Congressional Record every day. I don't know if there 
are that many people who do that now since we do have our TVs 
on and we are able to kind of keep track of what people are 
saying. But are most of them used here on Capitol Hill or are 
they sent out across the country? Are they in libraries? I 
mean, where are the actual hard copies going?
    Ms. Haas. Well, I can speak only to the ones that come to 
Capitol Hill. And so, as you mentioned, the Members' offices 
are not getting the copies as they used to. A large quantity 
comes to the Legislative Resource Center to make them available 
to Members and the public if they are interested in getting a 
copy. It is available online, as you know.
    But they are also very important to our day-to-day 
operations. We use them on the House floor. We use them in our 
Legislative Operations team, our Official Reporters, 
Legislative Counsel. So there are entities within the House 
that need the Congressional Record to operate each day. We also 
have copies available on the floor as it is part of our regular 
proceedings each day to see that that information is out there 
and available to Members when they are on the floor.
    Mr. Raskin. Gotcha.
    Do you think there is a role for the private sector to play 
in the work of preserving the Congressional Record?
    Ms. Haas. I think that would be open to discussion. I think 
one of the keys right now is how the information is available 
currently on FDsys, the authentication process that takes place 
through GPO, and the key is to continue to archive it. One of 
the responsibilities of the Clerk is to keep copies of any 
publication, two copies in our archives, for history purposes 
and forever. And so we also keep paper copies, as well as 
electronic, of the Congressional Record.
    Mr. Raskin. Are you working actively with the GPO to figure 
out ways to improve public access to information about what 
goes on in the House?
    Ms. Haas. Oh, absolutely.
    Mr. Raskin. Tell me how that process works.
    Ms. Haas. Sure. So, as I mentioned in my testimony, GPO has 
been a partner for many years with us, most recently with the 
Bulk Data Task Force that was established. And what was behind 
that effort was a real desire by our customers, both internal 
and external, to get legislative data.
    So GPO has been able to provide the expertise. They have 
the databases available where they display our information. And 
they have taken the lead on different documents that the House 
produces and putting them in a standardized form, but then 
outside groups can take that information and use it to their 
benefit.
    Mr. Raskin. Gotcha.
    All right. Well, that is all I have now, Mr. Chairman. I 
will yield back to you.
    The Chairman. I want to thank you for your appearance 
today. And I know you would love to answer a lot more 
questions, but before we close with you on the first panel, is 
there anything that you would care to add in light of the 
questions that have been asked?
    Ms. Haas. No, I just appreciate the opportunity.
    The Chairman. Thank you very much for being here. Thank 
you.
    Ms. Haas. Thank you.
    The Chairman. Thank you, Madam Clerk.
    That will conclude our first panel, and we will take just a 
moment to set the second panel of witnesses on the table.
    The Chairman. I want to thank each of you for being here 
today to assist us on what has become a very important mission 
for us this year as we review title 44, talk to the various 
stakeholders. And I am going to take a moment now to introduce 
each of you.
    Eric Petersen is a specialist in American National 
Government with the Congressional Research Service, who will 
discuss the role of the Joint Committee on Printing and the 
constitutional principles of separation of powers as it relates 
to Congress' control of Federal printing and executive branch 
agencies.
    Robin Dale is the Deputy Director of Library Services at 
the Institute of Museum and Library Services, an independent 
agency in the executive branch, who will discuss Federal grant-
making to libraries.
    Roger Schonfeld is the Director of Libraries and Scholarly 
Communications Program at Ithaka S+R, a not-for-profit service 
that helps academic and cultural communities effectively use 
digital technologies, who will discuss preservation of tangible 
and digital materials.
    The Committee has received each of your written 
testimonies. Each witness will be given 5 minutes to present a 
summary of that submission. You have seen how it works with the 
Clerk who just testified. You have a button, obviously, to turn 
on your microphone, and then the timer clock will work there.
    And so the Chair would now recognize our witnesses for the 
purposes of their opening statements.
    And I will begin with you, Dr. Petersen, and you are 
allowed 5 minutes. Thank you.

    STATEMENTS OF DR. ERIC PETERSEN, SPECIALIST IN AMERICAN 
NATIONAL GOVERNMENT, CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF 
   CONGRESS; MS. ROBIN L. DALE, DEPUTY DIRECTOR FOR LIBRARY 
  SERVICES, INSTITUTE OF MUSEUM AND LIBRARY SERVICES; AND MR. 
     ROGER C. SCHONFELD, DIRECTOR OF LIBRARY AND SCHOLARLY 
               COMMUNICATIONS PROGRAM, ITHAKA S+R

                   STATEMENT OF ERIC PETERSEN

    Mr. Petersen. Thank you, Mr. Chairman, Members of the 
Committee. Thank you for the opportunity to appear before you 
today.
    The Joint Committee on Printing, established in 1846, and 
GPO, established in 1861, have played central roles in ensuring 
public access to government information. At the same time, 
changes in governance and information technology have raised 
questions about the roles and activities of the Joint Committee 
and in some cases the capacity of GPO to carry out its 
missions.
    With regard to governance, JCP's authority to oversee and 
enforce statutory authorities that mandate government printing 
through GPO have been widely questioned by the executive branch 
since the 1983 Supreme Court decision in Immigration and 
Naturalization Service v. Chadha.
    The Department of Justice's Office of Legal Counsel has 
twice concluded that many of JCP's authorities, particularly 
provisions mandating JCP's prior approval before an executive 
agency can have materials printed outside of GPO, have been 
invalidated by Chadha. And I would hasten to mention that I am 
not an attorney. In this case I am speaking more to the policy 
consequences.
    From OLC's perspective, executive agencies are able to 
procure printing services from providers other than GPO. And 
since then, for the governance reasons, GPO workloads and 
revenues have declined and agency-controlled printing and 
publishing efforts have resulted in an unknown number of 
fugitive documents being created and not getting into GPO's 
Federal Digital System or into the collections of the Federal 
Depository Library participants. And what this does is 
potentially makes them unavailable to policymakers or the 
general public.
    Another concern raised by congressional and other observers 
arises with regard to the Joint Committee and includes 
questions as to whether or not its responsibilities might 
formally be performed by other entities.
    With regard to technology, government information and 
publishing authorities, as the chairman noted in his opening 
statement, have remained in substantially the same state as 
they were when they were first enacted in the 19th and 20th 
centuries, before digital creation and distribution became the 
norm. The online version of the U.S. Code mentions current JCP 
authorities in about 60 sections. Thirty-seven of those 
sections were originally enacted a century or more ago, chiefly 
in the Printing Act of 1895.
    Similarly, GPO is subject to 129 Code sections in Title 44, 
of which 105 were first enacted during or prior to 1917. Some 
of these authorities over the past quarter century have been 
called into question by the Government Accountability Office, 
the National Academy of Public Administration, and in an 
earlier session of this hearing, the Director of GPO.
    And while there does appear to be broad recognition of the 
shortcomings of some current authorities in Title 44, the way 
ahead is complicated by the lack of a stable, robust set of 
technology and information management practices similar to 
those that were in place when Congress enacted the bulk of 
government information policies. By 1895, the written word on a 
tangible object was a technology that had a 4,000-year track 
record.
    In the fourth or fifth decade of transition from the 
tangible written word to ubiquitous digital creation and 
distribution, permanent retention or preservation of those 
formats is still challenging. And instead of a fixed standard, 
as is available for tangible printing products, digital 
preservation and retention efforts have not yet produced a 
digital equivalent with the preservation capacity of tangible 
items. And until and unless we get to a point where we have 
that, any effort to establish standards for the production and 
retention of digital materials runs the risk of potentially 
privileging a current standard or denying Congress, the 
American people, and GPO the opportunity to take advantage of 
some as-yet-undiscovered sets of technologies.
    I think that is a good place to leave it for the moment. 
Thank you again for inviting me to testify. And I will be happy 
to address any questions you may have.
    [The statement of Mr. Petersen follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
     
    The Chairman. Thank you, very much, Dr. Petersen.
    The Chair will now recognize Ms. Dale for 5 minutes for her 
testimony.
    Thank you, and welcome.

                   STATEMENT OF ROBIN L. DALE

    Ms. Dale. Good morning, Chairman Harper, Congressman 
Raskin, and of course the other Members of the Committee.
    On behalf of the Institute of Museum and Library Services 
Director, Dr. Kathryn K. Matthew, I want to thank you for this 
invitation to submit testimony before the House Committee on 
Administration as you examine the modernization of the 
Government Publishing Office.
    I first would like to take a moment and give you a brief 
overview of IMLS, where I serve as the Deputy Director for 
Library Services.
    The Institute of Museum and Library Services is the Federal 
agency with the primary responsibility for ensuring the 
availability of museum, library, and information services to 
meet the essential needs of the people of the United States.
    IMLS is an independent grant-making agency and the primary 
source of Federal support for the Nation's approximately 
120,000 libraries and 35,000 museums and related organizations. 
IMLS was created with the passage of the Museum and Library 
Services Act of 1996, which, as amended, authorizes the agency 
to award financial assistance, collect data, form strategic 
partnerships, and advise the President, Congress, and other 
Federal agencies on museum, library, and information services. 
The agency consolidates Federal library and information 
services programs dating back to 1956 and Federal museum 
programs dating back to 1976.
    IMLS ensures critical access to the development of library 
services throughout the United States, its territories, and 
Native American tribes pursuant to the Library Services and 
Technology Act. IMLS supports library initiatives that 
facilitate innovation and workforce development through 
competitive grant programs.
    Our Grants to States Program is the largest Federal funding 
support for library services in the United States. It is 
designed to stimulate the use of State and local funds for 
library improvement throughout the Nation. It encourages States 
to implement comprehensive programs to meet library services 
needs of their residents by establishing State Library 
Administrative Agencies, or SLAAs, as we call them, and they 
are charged by laws with the extension and development of 
library services. Fifty-nine State agencies now ensure that 
library services reach individuals in every State and 
territory.
    To receive Federal support from IMLS, an SLAA must submit a 
plan that details library service goals for a 5-year period and 
describes activities that will be supported with the assistance 
of Federal funds. Each State is then responsible for leveraging 
non-Federal, State and local match funds it receives to 
increase the impact of the investment. In addition, each State 
must sustain a ``Maintenance of Effort'' level of State funding 
on libraries and library programs to ensure that Federal funds 
enhance and do not supplant State funds.
    They may use the funds to support State initiatives and 
services. They may also distribute the funds through 
competitive sub-awards or also in cooperative agreements with 
public, academic, research, school, tribal, and special 
libraries or consortia, and every year over 1,500 Grants to 
States projects carry out these statutory purposes, ensuring 
the availability of library services by providing access to 
electronic databases, computer instruction, homework centers, 
digitization of special collections, access to e-books and 
adaptive technology, and tools supporting workforce 
development.
    A priority of the program is to address the needs of 
underserved communities and persons having difficulty using 
libraries. More than 10 percent of our grant funds over the 
last several years have been used to support library services 
for individuals who are blind or visually handicapped or have 
other disabilities.
    IMLS funds also support libraries' provision of science, 
technology, engineering and math, or STEM programs, designed to 
meet the needs of their communities. Library users receive 
hands-on instruction in science and technology to which they 
would normally not have access. This program supports career 
development as well as robust inquiry and skills essential for 
all citizens to lead productive and informed lives.
    At the end of each 5-year period, SLAAs evaluate their 
library programs based upon their original 5-year plan. These 
plans and evaluations are the foundation for improving practice 
and delivering services, and they must file annual financial 
and programmatic reports.
    Our statutory responsibilities for grant-making also 
include a range of competitive grant programs, including grants 
to Native American Tribes, including federally recognized 
Tribes, as well as Alaska Native villages, regional 
corporations, village corporations, and organizations that 
primarily represent and serve Native Hawaiians, to enable 
access to library services; National Leadership Grants to 
support innovation, and the Laura Bush 21st Century Librarian 
Program to help build a diverse and qualified librarian 
workforce.
    We handle all aspects of grant administration, applying 
proper controls to ensure equity, fairness, and fiscal 
management and oversight. For example, our peer review process 
is central to its grant-making function and professionals with 
experience and expertise in a vast array of library disciplines 
and practices review all proposals from eligible institutions. 
Peer reviewers help ensure that financial assistance provided 
for projects that are appropriate to the applicant's capability 
and the scale of the overall programs, as well as the defined 
project goals, and we conduct cost analyses of these projects.
    We monitor and oversee grantees, requiring that they 
maintain fiscal control and employ accounting procedures that 
ensure the proper disbursement for and accounting of Federal 
funds, and our agency has been recognized as a model for 
transparency, results-based goals, and priority setting, as 
well as for responsiveness and spending discipline.
    And we are going up.
    So, in conclusion, I would like to thank Chairman Harper 
and the Committee Members for this opportunity to provide 
testimony on behalf of IMLS, and I look forward to your 
questions.
    [The statement of Ms. Dale follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    The Chairman. Thank you, Ms. Dale. And it is good to know 
no trapdoor opens up if you go a few minutes or a little bit 
over.
    Ms. Dale. That is correct. Well, you know, I watched it go 
down. And then I missed that the numbers would then go up once 
you were speaking over. So----
    The Chairman. We are good. We are good.
    Ms. Dale. Thank you.
    The Chairman. Thank you very much for your testimony.
    The Chair will now recognize Mr. Schonfeld for 5 minutes. 
Thank you. Or 5\1/2\ minutes, whichever you prefer.

                STATEMENT OF ROGER C. SCHONFELD

    Mr. Schonfeld. Chairman Harper, Mr. Raskin, Members of the 
Committee, thank you for inviting me to testify here today.
    I am a librarian who has led a number of projects examining 
preservation issues in the transition from print to digital. 
Nearly a decade ago, I led two projects focused on structural 
challenges facing the Federal Depository Library Program and 
how the vital work of that program can be sustained. Today I 
will focus my remarks on factors I hope you will consider 
related to the long-term preservation of government 
publications.
    Preservation is an imperative for ensuring permanent public 
access, and it has several components beyond simply storing and 
retaining publications. First, there are technical issues, such 
as physical security, disaster planning, file preservation, and 
format changes. And second, there are governance issues, 
including how preservation is organized and funded. I want to 
focus on organizational issues today both for print and for 
digital preservation.
    At a time of transition from tangible to increasingly 
digital access for many information resources, it remains 
essential that at least some print copies be retained. Because 
of research that I commissioned from a Berkeley operations 
researcher, we have a framework for determining the number of 
print copies of a given item that are needed for preservation 
purposes. Depending on a number of factors, including the 
condition of the collection and whether the materials are in 
circulation, we may need fewer than 10 copies to ensure their 
long-term preservation.
    Federal government publications with widely available 
trusted digital copies are well-suited to this type of 
analysis. But the FDLP is not organized to optimize for the 
preservation of print materials that are increasingly accessed 
digitally.
    Academic libraries today are banding together into what I 
call trust networks to take collective responsibility for print 
collections. Each library individually can thereby reduce space 
and other resources devoted to print collections. Trust 
networks typically involve a more explicit commitment to 
retention, and in some cases preservation, than any single 
library was ever able to make for similar materials on its own.
    The Association of Southeastern Research Libraries is a 
case in point. Participating libraries focus on a certain 
agency or set of agencies committing to build and maintain a 
collection more rigorously than the FDLP itself mandates. This 
type of distributed but systematic approach is a fantastic 
model for what the future of the program could look like. Trust 
networks like this one frequently cross State boundaries, which 
is a challenge for the FDLP's State-based model.
    Looking ahead, the FDLP should evolve, along with library 
preservation strategy, to allow a trust network of libraries to 
serve in the role of the regional repository. GPO should 
integrate the Preservation Stewards Program and its regional 
discard policy along these lines and run them more proactively 
to ensure preservation in modern, yet robust and systematic 
ways.
    As government publications are now typically issued in 
digital format, it is essential that this format also be 
preserved. But many Federal publications are not being gathered 
up into the FDsys, GovInfo platform. It is therefore reasonable 
to worry if their preservation as a coherent collection is 
failing.
    GPO needs a stronger focus or abilities to enable it to 
build this coherent collection of Federal publications or an 
alternative other than GPO must be found for doing so. This 
issue must be addressed both prospectively and retrospectively 
to ensure that gaps in the holdings of digital and digitized 
publications are filled.
    Additionally, I would question whether GPO should have sole 
responsibility for digital preservation. Best practice is for 
preservation responsibilities to be transferred from the 
creator and publisher to one or more third parties representing 
the users of publications. Consequently, there should be a 
strong third-party role for preservation of Federal 
publications. The government should have a formal agreement 
with this third-party and provide stable financial support.
    This third party would take custody of publications when 
they are issued and maintain them in a diversity of political 
jurisdictions, including, in this case, at least one 
jurisdiction outside the United States. At any point the 
publications become unavailable through normal channels, the 
third party would ensure that public access is not interrupted. 
The FDLP could be restructured to provide for such a model or 
GPO could contract with a third party outside of the parameters 
of the FDLP.
    I thank this Committee for your work to ensure preservation 
and access to government publications. By modernizing the FDLP 
and aligning it with preservation best practices, you can help 
to ensure that these vital government publications will remain 
available for the American public for generations to come.
    I look forward to your questions.
    [The statement of Mr. Schonfeld follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
   
   
    The Chairman. I want to thank each of you for your 
testimony. This is an issue that is very important, I believe, 
to the future of how all of this is going to work.
    The gentlelady from Virginia, Mrs. Comstock, is rotating 
between three different hearings set all during the same time. 
She will have to run. So I am going to take a liberty as Chair 
and recognize Mrs. Comstock first for 5-minutes for questions.
    Mrs. Comstock. Thank you, Mr. Chairman.
    Dr. Petersen, in your testimony you stated that Congress 
could consider a process by which the potential adoption of 
newer technologies and approaches reflective of emerging 
information management practices might be specified in statute. 
Could you explain how Congress could delegate that authority to 
GPO? Would it be through some rulemaking process or how that 
might be done?
    Mr. Petersen. Thank you for the question.
    I guess the first step is to identify a technology adoption 
process, and this is one option for considering how to 
implement the flexibility to bring in emerging technologies 
over time.
    One option is an expert panel, folks who look at this 
stuff, folks like Mr. Schonfeld, who study it deeply and can 
see what is coming and how the extent to what existing 
technologies are, you know, expiring or being overtaken by 
newer things.
    What then could happen is that the process of technology 
determination could be enacted as the method of implementing 
it. And this could be overseen by GPO. This could be overseen 
by another entity.
    And it would potentially be a regulatory option. GPO could 
implement these things by regulation. Perhaps the statute could 
mandate that the technology development process be carried out 
at a regular interval, and then, in the absence of some manner 
of objection, be implemented that way.
    There are a number of options as to how that could move 
forward.
    Mrs. Comstock. Okay. Thank you.
    And, Mr. Schonfeld, in your testimony you talked about a 
third-party role for preservation. Could you expand upon that? 
And, as you mentioned, the Federal Information Preservation 
Network, would that effort by GPO be enough to preserve the 
Federal collection?
    Mr. Schonfeld. Thank you for the question.
    In terms of third-party preservation, we have developed a 
system--Ms. Dale was actually one of the originators of it--of 
certifying trusted digital repositories. It is a process that 
makes it possible for us to have assurance that these 
repositories are audited and certified.
    Even if FDsys or GovInfo, the GPO's repositories, were to 
be certified as trustworthy, governance principles would still 
argue for a strong third-party that itself would be certified 
as trustworthy. But as you may know, GPO attempted to have its 
own digital repository certified, and the certification has not 
yet been received. This should, perhaps, cause some special 
concerns for us about whether GPO is in the right position 
here.
    I would answer about the Federal Information Preservation 
Network by-saying that what GPO really needs to establish here 
is a risk-informed set of preservation goals. And I think that 
that is really what we are talking about, how do you understand 
what the risks are, what the risk factors are relative to the 
resources that are available for addressing those risks. That 
would yield a set of technical objectives, like how many copies 
do you need, under what environmental conditions, and so forth, 
for the digital side.
    But the answer is not just to get as much as possible. 
Preservation isn't about as much as possible. That can yield 
far too much preservation, and therefore inefficiency, or it 
can yield far too little preservation, putting items, materials 
that we care about, at risk.
    So I would say that thinking about how GPO could get to a 
more risk-informed way of thinking about preservation against 
the tradeoffs and resources that are required would be an 
important step forward.
    Mrs. Comstock. Thank you.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlelady yields back.
    The Chair would now recognize the gentleman from Maryland, 
Mr. Raskin, for 5 minutes for questions.
    Mr. Raskin. Mr. Chairman, thank you, very much.
    Let's see. Mr. Petersen, let me start with you. You piqued 
my interest with your invocation of the Chadha decision, which, 
of course, found that Congress, when it acts in its legislative 
capacity, must act bicameral, with presentment to the 
President. Are you suggesting that that creates a problem for 
each house essentially controlling its own printing and 
publishing operations? Was that the relevance of it?
    Mr. Petersen. No, sir. It had to do with the capacity to 
implement 44 U.S.C. 501, which states that all government 
printing goes through the Government Publishing Office at the 
direction of the Joint Committee on Printing. And following the 
decision in 1983, a number of executive branch agencies spent 
the next decade asking why GPO and JCP were in this position in 
light of Chadha.
    So it was a consequence where, with the Department of 
Justice's Office of Legal Counsel's opinions, that JCP had no 
constitutional role in light of Chadha. Many executive agencies 
chose to take their printing business elsewhere, either doing 
it within the agency or contracting out on their own 
authorities.
    A consequence of this is, because of the funding model of 
GPO, that GPO had less revenue to support the various 
nonprinting activities that it has been assigned to over the 
past 25 years.
    Mr. Raskin. I see. And that is an historical process that 
has continued, the executive agencies?
    Mr. Petersen. I would say it is reasonably set at this 
point. But it is the turning point at which Congress began to 
question what JCP might do in the future. And it changed a 
little bit the model of how GPO went out and found work from 
the executive branch.
    Mr. Raskin. Gotcha. Thank you.
    Ms. Dale, a lot of libraries don't have big endowments and 
are facing shrinking local budgets today, and as the Committee 
considers providing grant-making authority to the GPO, what can 
we learn from your grant-making program about how to make this 
an effective operation if it is to happen?
    Ms. Dale. Thank you for the question.
    I would say in terms of the IMLS grant-making and drawing 
parallels, it is about the ability to understand the scope and 
the scale of what grant-making would be within there and ensure 
that there are proper controls in place as we do have at IMLS. 
As I mentioned earlier, we have anything from fiscal controls. 
We have appropriate peer review in grant-making and grant 
selection. We have grants that run from the tens of thousands 
up into the millions of dollars. So we have appropriate 
processes and procedures in place that allow us to scale and 
address those needs as they come in.
    I would say that those principles are things that would 
need to be in place for this program should the grant-making 
authority be something you decide upon. Of course, IMLS doesn't 
have a position at this time in terms of the question and 
within the legislative and administrative purview of the 
Committee to address the grant-making authority.
    Mr. Raskin. Thank you.
    And, Mr. Schonfeld, finally, you say that preservation of 
government information may require, or ideally requires, the 
involvement of a third party, and I think you suggested in your 
testimony possibly outside of the country. Who becomes 
responsible for maintaining the security of that information, 
both in its digital and tangible forms, if we are to delegate 
it to a third party?
    Mr. Schonfeld. Thank you for the question.
    Just to make sure that it is clear, I don't mean to suggest 
that the third party itself has to be administratively located 
outside of the country but that the preservation best practice 
would call for at least one copy of the material to be held in 
a jurisdiction outside of the country. So just to make sure 
that I didn't leave any ambiguity there.
    The question as to security of the information, in this 
case I believe we are talking about publications of the 
government, which is to say materials that are publicly 
accessible. So I think that there are questions not so much 
about security in terms of keeping them from being made 
available, but certainly there are questions about 
authentication and making sure that the materials themselves 
are authenticated and authentic. And I think that there are 
processes and procedures in place technically, through some of 
the existing third-party preservation entities, that would 
accommodate for that kind of question.
    Mr. Raskin. Great.
    Mr. Chairman, I yield back to you. Thank you very much.
    The Chairman. The gentleman yields back.
    I now recognize myself for 5 minutes for questions. And, 
again, thanks to each of you for being here.
    Dr. Petersen, as the Committee prepares to work on and 
rewrite Title 44, what guidance would you give us to ensure 
success?
    Mr. Petersen. Well, Mr. Chairman, as you know, the 
Congressional Research Service doesn't tell Congress what to 
do. That is not just in statute, that is pursuant to fairly 
regular reminders from this Committee among others.
    The Chairman. But we are very open-minded and we are okay. 
While you can't tell us, you can suggest heavily.
    Mr. Petersen. Well, I think that there is a long two-and-a-
half-decade process of considering the position of the Joint 
Committee on Printing. I think there are regular conversations 
related--and you just had a piece of that with the Clerk a few 
minutes ago--considering the specificity of the types and 
amounts of printing that need to happen moving forward.
    We know that most users, for example, rely on the digital 
manifestations of most congressional documents. At the same 
time, there are archival purposes for tangible processes, 
because we don't have an enduring archival standard for digital 
things. There are still people who like to look at it and mark 
it up. So there is going to be something there.
    I don't think, for example, on the Congressional Record--
you know, there are somewhere north of 29,000 copies of the 
daily edition authorized. My understanding from GPO's budget 
submission is that they print about 1,700 or so. And while that 
authorization has been made, there isn't a public record of 
where it has been made or under what authority. And surfacing 
those sorts of bits of information about how the printing 
process works, how the distribution process works, may be 
helpful in elevating the transparency of the government 
information process.
    The Chairman. Thank you for those suggestions. Thank you.
    Ms. Dale, if I may ask you, has IMLS ever been defined in 
statute to handle grant-making for an agency or other entity in 
government?
    Ms. Dale. So we have a number. There is a bit in the 
written testimony that was provided in terms of the interagency 
agreements that we have done with our grant-making authority 
that delves into that realm, including when establishing the 
National Museum of African American History and Culture through 
Public Law 108-104, Congress authorized IMLS to establish grant 
programs to build the capacity of museums of African-American 
History and Culture, in consultation with the Director of 
Museums.
    The Department of Interior leverages IMLS' peer-review and 
grant-making expertise to award and manage library and museum-
related grants for collections care. So we do have partnerships 
and advise other agencies on those matters.
    The Chairman. So you have had that collaboration with other 
Federal agencies?
    Ms. Dale. Yes, sir.
    The Chairman. What models for collaboration have worked 
well in the past? And notwithstanding a possible inclusion in 
statute, are there opportunities for IMLS to collaborate with 
GPO?
    Ms. Dale. Certainly there is precedent there for IMLS to be 
able to collaborate with GPO on, I would imagine, any numbers. 
As I mentioned, there were two different examples there. There 
are others that we could provide where we have worked with 
other agencies and assisted them with grant programs. Those 
were the two that were easiest.
    I would say that we are certainly flexible and willing to 
hear more about the interest. Again, we don't have a particular 
position on which way that the Committee would choose to go. 
But we would certainly be willing to take in any questions you 
might have and provide any further technical assistance or 
advice on options.
    The Chairman. And certainly you--as you stated earlier, 
there are grants given in various amounts, from----
    Ms. Dale. Yes, sir. From 10,000 to----
    The Chairman [continuing]. From thousands to millions.
    Ms. Dale. Yes, sir.
    The Chairman. What level of funding would a grant-making 
program need in order to be effective?
    Ms. Dale. So I will take that back to my earlier comment 
about scale and scope, and I think it really depends on the 
goals of the program and whether it would be competitive or if 
there is a sort of Grants to States-based model where a certain 
amount of money is given to every State based upon some 
formula.
    And then I would just say that there is certainly a need to 
provide the level of oversight and review and financial 
accountability. And certainly we continue to work on all the 
processes to make sure that they are in place, and we do 
improvements all the time. But there is a great deal of work 
assisting, both providing technical assistance to grantees, but 
as well as the entire grant-making process.
    The Chairman. Thank you.
    Mr. Raskin, do you have any followup questions in light of 
my questioning?
    Mr. Raskin. I do not, Mr. Chairman.
    The Chairman. Okay.
    I want to thank each of you for being here. This is a very 
important process. It may not appear to be the most glamorous 
topic as we go through Title 44, but it is very important how 
we are going to operate and how we are going to move forward. 
And I know, Mr. Schonfeld, you mentioned that as well.
    And before I close out the questioning, just one quick 
question. Twenty years ago we could never have imagined the 
digital transformation of storage of this. Do you have a 
glimpse, as you study this, where we are going to be in 20 
years?
    Mr. Schonfeld. Well, I think that we are going to see the 
transition from print to digital formats continue to 
accelerate, the transition from tangible to digital formats 
continue to accelerate, and I think that we are going to see 
all sorts of ways that we will move from static publications to 
more interactive kinds of information resources.
    At the same time, I think we have seen that the transition 
has not taken place as quickly for many formats as some people 
would have expected. And we have to be cautious in how we make 
that transition so that we respond to reading behaviors, as 
libraries we support the needs of the public and the academics 
who need the materials that we have.
    So I think we are going to see an increasingly digital 
future, but one where libraries have a very strong role, and a 
stronger role even, in providing preservation and access and 
other services.
    The Chairman. Great.
    Well, you look at how things have changed from 8-tracks to 
iTunes. It has been remarkable. And I am sure we are going to 
see that in the roles that we are all playing here.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written witness questions 
that could be forwarded to each witness to answer as promptly 
as they can in order for those to be made a part of the record.
    Without objection, this hearing is adjourned.
    [Whereupon, at 11:31 a.m., the Committee was adjourned.]


</pre></body></html>
